                        UNITED STATES DEPARTMENT OF EDUCATION 

                                         OFFICE OF INSPECTOR GENERAL 

                                   1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                               DALLAS, TEXAS 75201-6817 

                                        PHONE: (214) 880-3031 FAX: (214) 880-2492 



                                                      DEC I 3 2004



Ms. Sharon Wells
Education Program Specialist
U. S_ Department of the Interior
Bureau of Indian Affairs
Office of Indian Education Programs
1849 CSt., NW, Room 3512, MIB
Washington, DC 20240

Dear Ms. Wells:

This Final Audit Report (ED-OIG/A06-EOOlO) presents the results of our audit of the
Individuals with Disabilities Education Act (IDEA), Part B requirements at Turtle Mountain
Community High School (Turtle Mountain High School) for the period July 1,2001, through
September 30,2003. Our objective was to determine whether Turtle Mountain High School
administered IDEA, Part B funds in accordance with requirements, laws and regulations, and
provided services to eligible children in accordance with each student's Individualized Education
Program (IEP).

We provided a draft of this report to the Bureau of Indian Affairs (BIA), Office of Indian
Education Programs. In its response to our draft report, BIA officials generally agreed with our
recommendations. We have summarized BIA's comments in the body of the report and have
included the response as an Attachment to this report.



                                               BACKGROUND 


The Department of Education (Department) provides funding from major program grants to the
Bureau of Indian Affairs (BIA), an agency within the Department of the Interior. The BIA
allocates these funds to elementary and secondary schools operated or funded by the Secretary of
the Interior, including tribally operated schools that are funded by the BIA. These grants support
students with disabilities and disadvantaged children. The Department provided $140 million
(22 percent) of BIA's school operating funds in 2002. The program funds from the Department
have constituted an increasing share of these schools' operating budgets since fiscal year (FY)
1999 (from 18.2 percent to 22 percent in fiscal year 2002). This is due in part to large increases




      Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations
ED-OIG/A06-E0010                                                                          Page 2 of 7


since 1999 in two major Department programs under which BIA receives funds--IDEA, Part B
and Elementary and Secondary Education Act, Title I (Title I). At BIA funded schools, funds for
students with disabilities under IDEA increased by 50 percent, and Title I funds for
disadvantaged students increased by 21 percent for fiscal years 1999 through 2002. As the
IDEA, Part B appropriation increased, IDEA, Part B funds provided to the Secretary of the
Interior have been capped in the FY 2002, 2003, and 2004 appropriation language at the prior
year’s funding level, plus inflation.

IDEA, Part B requires the Department to provide funds to the Secretary of the Interior to assist in
providing special education and related services to children with disabilities. From the amount
appropriated for any fiscal year, the Department shall reserve 1.226 percent to provide assistance
to the Secretary of the Interior, of which 80 percent is allotted for serving children ages 5 through
21 with disabilities enrolled in elementary and secondary schools for Indian children operated or
funded by the Secretary of the Interior. The Secretary of the Interior is required to submit
information to the Department that it meets the requirements of IDEA. In addition, the Secretary
of the Interior will provide several assurances, including an assurance that the Department of the
Interior will cooperate with the Department in its exercise of monitoring and oversight
requirements.

BIA funded schools are to use 15 percent of the Indian School Equalization Program (ISEP)
formula funds generated by their base instructional administration to fund their special education
programs. ISEP funds constitute the largest amount of the Department of the Interior funds used
for school-level administration, such as principals’ salaries and administrative assistance, in
addition to salaries for teachers, teacher aides, and the cost of materials. If the 15 percent is not
sufficient to fund the services needed by all eligible ISEP students with disabilities, then the
school may apply for IDEA, Part B funds. Schools must demonstrate need when applying for
these funds.

Turtle Mountain High School is located in Belcourt, North Dakota, and is part of the Turtle
Mountain Band of Chippewa. The BIA disbursed $1,064,770 of IDEA, Part B funds to Turtle
Mountain High School for our two-year audit period as follows—

                           School Year 2001-2002                      $ 492,400
                           School Year 2002-2003                      $ 572,370
                           Total                                      $1,064,770

For the 2001-2002 school year, Turtle Mountain High School had an enrollment of 592 students
with 146 classified as disabled; and in the 2002-2003 school year, enrollment was 591 students
with 151 classified as disabled. The average amount of IDEA, Part B funds per pupil was $3,373
in the 2001-2002 school year and $3,791 in the 2002-2003 school year.
ED-OIG/A06-E0010                                                                                        Page 3 of 7



                                             AUDIT RESULTS

Turtle Mountain High School was unable to demonstrate that it provided the planned special
education and related services to 94 percent of the students in our sample in accordance with
their IEP.

According to 34 C.F.R. § 300.341(a)(1)(2), The [Secretary of the Interior]1 shall ensure that each
public agency develops and implements an IEP for each eligible child with a disability served by
that agency. The IEP must contain certain elements according to 34 C.F.R. § 300.347,
including—

     (a)(3) A statement of the special education and related services and supplementary aids
     and services to be provided to the child . . .

     (a)(7)(ii)(A) A statement of how the child’s parents will be regularly informed (through
     such means as periodic report cards), at least as often as parents are informed of their
     nondisabled children’s progress, of . . . Their child’s progress toward the annual goals.

Further, 34 C.F.R. § 300.350(a)(1) requires that each public agency must provide special
education and related services to a child with a disability in accordance with the child’s IEP.

An IEP has several elements, including the child’s present level of educational performance, the
annual goals and objectives, as well as the direct special education and related services that will
be provided to help meet those goals and objectives. The IEP must include a statement of how
the parents will be informed of the child’s progress, including the extent to which the progress is
sufficient to enable the child to achieve the annual goals. However, the progress reports
provided to parents do not address the frequency and duration of the services being provided.
The frequency and duration of actual services provided should be documented in teachers’
attendance records.

Concerning the need to document special education services provided, OMB Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, Attachment A, Paragraph C.1
(1997) provides that—

     To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
     proper and efficient performance and administration of Federal awards . . . Be allocable
     to Federal awards . . . Be adequately documented.

To determine if Turtle Mountain High School was providing the required services and
documenting those services, we selected a random sample of 16 of 146 students with
disabilities in school year 2001-2002 and 15 of 151 students in school year 2002-2003. We
found that Turtle Mountain High School did not provide any services to 4 of the 31 students

1
  The regulations specifically refer to the SEA (State Educational Agency). However, 34 C.F.R. § 300.267 requires
the Secretary of the Interior to comply with specific sections of 34 C.F.R. Part 300, including 34 C.F.R. § 300.341.
ED-OIG/A06-E0010	                                                                       Page 4 of 7


in our sample; and, due to a lack of documentation we could not determine what services, if
any, were provided to 25 other students. Additionally, Turtle Mountain High School did not
develop the required progress reports informing the parents of their child’s progress as
specified in the student’s IEP for 8 of the 31 students.

We concluded these conditions occurred because school officials did not have procedures in
place to (1) ensure special education and related services were provided in accordance with the
student’s IEP, (2) ensure that parents are informed of their child’s progress as specified in the
student’s IEP, and (3) document that special education and related services were provided to all
students with disabilities in accordance with their IEPs.

As a result of the 94 percent error rate (29 of 31 files reviewed), Turtle Mountain High School
was unable to document that it provided the required special education services for the students
with disabilities during our two-year audit period. The high error rate and lack of documentation
indicates that Turtle Mountain High School has a management system that does not meet the
management standards set forth in the regulations. The regulations at 34 C.F.R. § 80.12(a) state
that a grantee may be considered “high risk” if an awarding agency determines that a grantee—

       (1) Has a history of unsatisfactory performance, or
       (2) Is not financially stable, or
       (3) Has a management system which does not meet the management standards set forth in
           this part, or
       (4) Has not conformed to terms and conditions of previous awards, or
       (5) Is otherwise not responsible; and if the awarding agency determines that an award
           will be made, special conditions and/or restrictions shall correspond to the high risk
           condition and shall be included in the award.


                                 RECOMMENDATIONS

We recommend that the Assistant Secretary for Special Education and Rehabilitative Services
instruct the Bureau of Indian Affairs to—

1. 	 Obtain assurance from Turtle Mountain High School officials that the $1,064,770 of IDEA,
     Part B funds was used to deliver the educational assistance proposed in each of the IEPs for
     the 297 children with disabilities.

2. 	 Instruct Turtle Mountain High School to document all special education and related services
     provided to each current student with disabilities and develop a progress report to inform
     parents of their child’s progress.

3. 	 Submit a corrective action plan, which includes strategies, benchmarks, proposed evidence of
     change, targets and timelines, to ensure the noncompliance identified in this audit is
     corrected.
ED-OIG/A06-E0010	                                                                        Page 5 of 7


We also recommend that the Assistant Secretary for Special Education and Rehabilitative
Services—

4. 	 Evaluate the corrective action plan submitted and determine whether the action proposed will
     correct the noncompliance identified in this audit.

5. 	 Monitor the corrective action taken and determine if it was effective. If the corrective action
     was not effective, determine whether Turtle Mountain High School should be designated as a
     high-risk grantee.


                       BIA’S COMMENTS TO THE DRAFT REPORT

BIA agreed to implement our recommendations. BIA stated, “Generally, there is agreement with
the proposed recommendations in your letter.” BIA will obtain a written assurance from Turtle
Mountain High School that IDEA funds were used to provide services to 297 students with
disabilities. Special education teachers will document progress of students with disabilities and
maintain attendance records documenting frequency and duration of services provided. BIA also
proposed a corrective action plan that included strategies, benchmarks, timelines to ensure the
noncompliance(s) identified in the draft report was corrected.


                                             OIG’S RESPONSE

We reviewed the BIA response to the draft report and the corrective action plan. We believe the
proposed corrective actions will address the issue of documenting services provided to children
with disabilities.


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Turtle Mountain High School administered IDEA, Part
B funds in accordance with requirements, laws and regulations2, and provided services to eligible
children in accordance with each student’s IEP.

To accomplish our objective, we—

       • 	 Reviewed the financial statement and compliance report for the year ended

           June 30, 2002; 

       • 	 Reviewed Turtle Mountain High School’s Special Education application and budget;



2
    Code of Federal Regulations 34 Parts 300 to 399, revised as of July 1, 2002.
ED-OIG/A06-E0010	                                                                       Page 6 of 7


   • 	 Reviewed detailed expense reports and payroll information regarding IDEA, Part B
       expenditures. We compared the information to budget information and performed
       reasonableness tests on the information provided;
   • 	 Reviewed the Master Student Roster – for the 2001-2002 and 2002-2003 school years;
   • 	 Reviewed Turtle Mountain High School’s Education – Organization Chart and Special
       Education Staff roster;
   • 	 Randomly selected and reviewed at least 10 percent (30) of the files for students
       requiring special education services. We examined the files for IEPs, progress reports,
       and a list of services to be provided. We then compared the list of services to supporting
       documentation (i.e. teacher attendance books, special education providers’ attendance
       books, and other relevant documentation); and,
   • 	 Interviewed various Turtle Mountain High School employees, Belcourt Public School
       District officials, and Department of the Interior/BIA officials in Albuquerque, New
       Mexico, and Belcourt, North Dakota.

We relied upon the computerized student roster lists provided by Turtle Mountain High School
officials for selecting our sample. We tested the student roster lists for accuracy and
completeness by comparing selected source records to the roster list. Based on this test, we
concluded the student roster list was sufficiently reliable to be used for the sample population.

We conducted our fieldwork at Turtle Mountain High School in Belcourt, North Dakota, on
March 9 - 17, 2004. We discussed the results of our audit with Turtle Mountain High School
officials on March 17, 2004. An exit conference was held with BIA officials on April 27, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.


                    STATEMENT ON INTERNAL CONTROLS

As part of our review, we assessed Turtle Mountain High School’s system of internal controls,
policies, and procedures applicable to providing special education services to children with
disabilities. Because of inherent limitations, a study and evaluation made for the limited
purposes described above would not necessarily disclose all material weaknesses in the internal
controls. However, our review identified that Turtle Mountain High School needs to improve its
internal controls related to documenting special education and related services provided to
children with disabilities in accordance with each child’s IEP. Those weaknesses and their
effects are discussed in the AUDIT RESULTS section of this report.
ED-OIG/A06-E0010                                                                          Page 7 of 7



                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following
Education Department officials, who will consider them before taking final
Departmental action on the audit:

                      Troy Justesen, Ed.D.
                      Acting Assistant Secretary
                      Office of Special Education and Rehabilitative Services
                      U.S. Department of Education
                      Federal Building No. 6, Room 3W315
                      400 Maryland Avenue, SW
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested; to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

                                                     Sincerely,


                                                     /s/
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit

Attachment
                           United States Department of the Interior
                                          BUREAU OF INDIAN AFFAIRS
                                                Washington. D.C. 20240



IN REPLY REFER TO:
                                                                         NOV 3 ! 2004

   Sherri L. Demmel 

   Regional Inspector General for Audit 

   U.S. Department of Education 

   Office of Inspector General 

   1999 Bryan Street, Suite 2630 

   Dallas, Texas 75201-6817 


   Dear Ms. Demmel:

   This letter is written in response to the results of the Office ofInspector General audit of the
   Individuals with Disabilities Education Act (IDEA), Part B requirements at Turtle Mountain
   High School for the period July 1,2001, through September 30,2003. As stated in your letter,
   the objective was to determine whether Turtle Mountain High School administered IDEA, Part B
   funds in accordance with requirements, laws and regulations, and whether they provided services
   to eligible children in accordance with the student's Individualized Education Program (IEP).

   Generally, there is agreement with the proposed recommendations of your letter. Specifically,
   our response is outlined below:

         1. 	 Draft Audit Report Recommendation: Obtain assurance from Turtle Mountain High
              School officials that the $1,064,770 ofIDEA, Part B funds was used to deliver the
              educational assistance proposed in each of the IEPs for the 297 children with disabilities.

              Response: A written assurance from Turtle Mountain High School will be obtained
              through the Grant Officer/Education Line Officer, indicating that IDEA funds were used
              to provide services to the 297 students with disabilities during SY 01-02 and SY 02-03 in
              accordance to each student's IEP. In addition, Turtle Mountain High School submitted
              the IDEA (Part B) budget to the Turtle Mountain Agency as part of their annual
              Consolidated School Reform Plan Application amendment for SY 01-02 and SY 02-03.
              This budget provides information as to how Part B money was used for that two-year
              period and is filed at the agency and the Center for School Improvement. In addition, a
              detailed expenditure report for those two years is kept at the school's budget office.

         2. 	 Draft Audit Report Recommendation: Instruct Turtle Mountain High School to
              document all special education and related services provided to each current student with
              disabilities and develop a progress report to inform parents of their child's progress.

               Response: The Turtle Mountain Agency will continue to validate services through the
               Indian School Equalization Program (ISEP) count process conducted in October 2004
               and each October thereafter. This is conducted using a checklist completed on 100% of
                                                                                         Attachment



       the students in the school's special education program. (See Attachment A) The Second
       Tier monitoring review occurs between January-April of each year involves a more
       extensive checklist and is done on 10% of the students. (See Attachment B) Each year a
       new group of student files are reviewed in order to gather more quantitative data. As part
       of the IEP, Turtle Mountain High School uses Form 21D to document how the parents
       are informed of the progress of their children (See Attachment C) The progress report,
       Form 23, is customarily sent to parents simultaneously when report cards are mailed out.
       (See Attachment D). Form 27 ofthe IEP is a Contact Log which identifies any contact
       made with parents, including progress of the students. (See Attachment E).
       In addition, the Turtle Mountain Education Line office will conduct random on-site
       validation visits for attendance and progress documentation. Turtle Mountain High
       School will finalize their special education policies and procedures to ensure all services
       are provided, including informing parents of their child's progress as specified in the
       student's IEP.

   3. 	 Draft Audit Report Recommendation: Submit a corrective action plan, which includes
        strategies, benchmarks, proposed evidence of change, targets and timelines, to ensure the
        noncompliance identified in this audit is corrected.

       Response: See Attachment F.

Thank you for allowing this office the opportunity to respond to the audit. If you should have
questions, please contact Gloria Yepa at 505-248-7541.

                              Sincerely,




                         ~E~~aJ~
                        lJ
                                 M6

                              Director, Office oflndian Education Programs

Enclosures
                               ..... ..... .....                           .....                                            ......
!
      ~ ~    .
             N
             )0000   ~ 'P ?' ;-J ?" PI
                        )ool                       1-'   J-'
                                                         ~
                                                               J-O
                                                               ~
                                                                     J-'
                                                                     f-'   .....   J-l
                                                                                   ?
                                                                                         'P ?l :-l ?'        ~   !""   ~
                                                                                                                                                                   ,
                                                                                                                                                                                         r.n                                 ~

                                                                                                                                                                                         r.                                  (S)
                                                                                                                                                                                         ::r
                                                                                                                                                                                         ¢                                   '"
                                                                                                                                                                                                                             tv
                                                                                                                                                                                                                            .lD
                                                                                                                                                                                         So                                  '"
                                                                                                                                                                                                                             tv
                                                                                                                                                                                                                             (S)
                                                                                                                                         00                                          i
I
                                                                                                                                         9"                                              )                                   (S)
                                                                                                                                                                                                                             .po.

:                                                                                                                                        c..
                                                                                                                                         ~
                                                                                                                                         ::s
                                                                                                                                                                                     I   I
                                                                                                                                                                                                                            (S)
                                                                                                                                                                                                                            lD
                                                                                                                                         s::!;
                                                                                                                                                                                                                            W
,                                                                                                                                        ~                                                                                  W
                                                                                                                                         '"I
~                                                                                                                                        =>
                                                                                                                                         c..
                                                                                                                                         I'D
                                                                                                                                                                                                                  ~Ul
!

                                                                                                                                                                                         ~
                                                                                                                                                                                         -<!
                                                                                                                                                                                         _.          _'"'!lI
                                                                                                                                                                                                            0
                                                                                                                                                                                                     r.J:J::l
                                                                                                                                                                                                                  t~
                                                                                                                                                                                                              ~.po.
                                                                                                                                                                                                                  Ul

                                                                                                                                                                                         ~     00    tr=1   !")             Ul
                                                                                                                                      Disability Cat.egory.
                                                                                                                                                                                         ~ g~~ 3
                                                                                                                                                                                               ~     1      J-4   ~
                                                                                                                                      Current Date'on IEP.
                                                                                                                                                                                               ~;.& ~
                                                                                                                                                                                               fD ..... .,....

                                                                                                                                      Hours ·ofSetVice 'Stated on IEP and
                                                                                                                                                                                               fI'It.!!J=
                                                                                                                                                                                               '"I   ~
                                                                                                                                                                                                     ;~
                                                                                                                                                                                                            =
                                                                                                                                      Verifi'~d b{L~n:'flan(s) and/or Special
                                                                                                                                                                                                     ~g-
                                                                                                                                                                                                                  :t>
                                                                                                                                      EdtIeatiOi;:. AtteudBuee
                                                                                                                                                         . .­  Roster.
                                                                                                                                                                                                     Q      n           t:1
                                                                                                                                                                                                                        0
                                                                                                                                                                                                     :I ~               H
                                                                                                                                                                                                     {jet
                                                                                                                                      PeniIission'-fot pJacement - Parental or
                                                                                                                                      Guardian Si~t1ires.                                            ..
                                                                                                                                                                                                     ~
                                                                                                                                                                                                     '''''~
                                                                                                                                                                                                     ~l'1
                                                                                                                                                                                                            g           to
                                                                                                                                                                                                                        H
                                                                                                                                                                                                                       1>
                                                                                                                                                                                                                       0
                                                                                                                                                                                                                       H


                                                                                                                                      Present Level ofEdufation Perfonnant:e,
                                                                                                                                                                                                     !=
                                                                                                                                                                                                     o .(JQ
                                                                                                                                                                                                          ..,
                                                                                                                                                                                                                       fT1
                                                                                                                                                                                                                       -u

                                                                                                                                      Annual GoaIs~ BenchInarkersJObjectives                         == 
              0
                                                                                                                                                                                                                       ill

                                                                                                                           :,.,~.:.   & Progi'ess·Re'u)l'ts.:·: R­                                    i                H




                                                                                                                                      Transition PWrniilg14.years +.                     0
                                                                                                                                                                                         ~
                                                                                                                                                                                         ;­
                                                                                                                                      Verified Paraprofessional Consultation
"' 

)
)
)                                                                                                                                     wi~SpeciaiEdtIcaiio]] Teachers for
                                                                                                                                      Students Participilting in IiicJusion.
                                                                                                                                                                                                                      -u
                                                                                                                                                                                                                      1>
..,
)                                                                                                                                                                                                                     G)
                                                                                                                                                                                                                      fT1
                                                                                                                                      Appropriate c;::ertificatioB of Teachers and
                                                                                                                                      As~ent
                                                                                                                                                                                                                      (S)
                                                                                                                                                  Team members..                                                      tv
                                                                                                                                                                                                                      ~--
                                                                                                                                                                                                                      ~
        --                                                                                              --
                                                                                                                                                                                                                      ~
    10/29/2004 	 09:33             5052487545 	                            DOl BlA OlEP CSl      Attachment
                                                                                                                    PAGE   03/11
                                              A't\tlC- \A.. V\Il.£V\..T      C>
Agbncy ~~~,~~                                   Monitor          'I                                 Date Monitored 07/09/2004
School Systetn@~                                                    Teach.r~
                                                      -------
Student~g~~.~!!!!!!?~                 _________________ DOB 03-05-1987                                     Age ~ Grade       12
Disability          Specific Learning Disability
             ----~----------~-----------
Student Status New File

                    Y=Yes                                              N = No                          T= Transfer 

                    NA;:: Not Applicable               o   = Old (Activity that happen 3 or mo,re ye41r8 in the p'ast.) 


Directions: 	Select the acronym, defined above, that-best describes ea,ch,compiianC:e ,concern. E~plain
             an "N" in the comment section by selecting the,proPQ~ed resPQns$s     defining your own         or
             using
               .
                   "Ed,it'l,
                            or "other".
                               "  ,
                                                               "              '

 { OSNEAAL "~EQti'I~M~NT :"
    ,~j:i~ In,~ect.ire looatiOn~'(30(i~'72)
 Comm~nt:'        '

    b. AccesS log is included in file and completed correctly. (300.563)
 Comment:


 2. Evaluation Procedures
    s, Prereferral interventions oompleted prior to referral to special education. Date:
       (300.583)
 Comment:


     b. Referral form included in file. Date:                                 (BIA Eligibility Document)
 Comment:


     c. Information gathered regarding student parUcipation and progress in the general education curriculum.
        (300.343)
 Comment


     d. Evaluation procedures related to the referral and prior interventions. (300.533)
 Comment:


     e. Evidence of a~ing students age 14 years and older their needs, preferences and interests. (300.344)
 Comment:


     f. Consent for initial evaluation in writing and in the file. Date:                                   1.505)
 Comment:




                                                                      1

      10/291.2004           09:33            5052487545                                         DOl BIA OlEP CSI        Attachment
                                                                                                                                            PAGE   04/11

Student!!!!!!!!!!!!!~~~_ _'Teach'er; ~!!!~~!!~                                                               ____                 Date: 07109/2004

       g. Variety of evaluation tools and stra.tegies used                         to   gather relevant, functional & developmental information.
           (300.532)
 Comment

t--.-.--....-.---.. .- " . - - -..--."'.--....--~......- -......--.. - ...- .....--..- - . - - - -..                                    '--_'0
    h. Tests are not biased in terms of race, gender, culture, or socioeconomic status. (300.532) 

 Comment 


1 - - - " . - - ,••- - - . " - - - "..- -                           ~                                                                       .
       i. Evaluation conducted in native language or other mode of communication where appropriate. (300.532)
 Comment:

-----,
    j. Student evaluated in all areas of suspected dlsability_. (300.~32)
 Comment:

                                                                                   ..
   . k. Current'evaluation was condUdfi)d by i1 t~am qf. profesSIonals, inc.lliding. parental Input. (300.532 & 535) 

 Comment: .                  .           .         .



       i. Current evaluation is less than three yeaJS old. DATE:                                                         ,43) 

 Comment: 



       m. Most racent three-year evaluation/review was held within required timelin•. (300.343)
 Comment:

                                                                                                                                                     [---   .•..   ­
       n. Consent for Reevaluation in file if team determines reevaluation is necessary. DATE:
       (300.536) .
 Comment:

    o. Continued eligibility documented if team determines that a reevaluation is not required to document the
       students continued eligibility for special education services. (300.533) 

 Comment: 



 3. Eligibility
    a. Evaluation Report completed and in the file. DATE:                                                      .42) 

 Comment: 



     b. Eligibility determination documented & in file. DATE:                         I)
        (Evaluation Report and Eligibility determination may be the same document.) 

  Comment: 



        c. Determination by multidisciplinary team. including parent. (300.543)
  Comment:


        d. AI' eligibility oriteria dooumented. (300.530 & 543)
  Comment:


                                                                                            2

  10/29/2004           09:33           5052487545
                                                                                                                           Attachment
                                                                                       DOl BIA OlEP CSl 	                                          PAGE       05/11


                                                                                                                                    Date: 07/09/2004
    e.             ' exited when' eligibility team determines that student is rio longer eliJJible for services. (300.320) 

 Comment: 


I--~-~'~"---'-'-""-~-'--'''''''''-:-'----'--''-::------:~-~'~~------:-:-''.-~--___-_:____=~~--_:__-,----~-_+--.-__I
   f. Section 504 is used as another service option for children with disabilities. (BIA Eligibility Document) 

 Comment 


  "'""",.'-,,----_,',",, ..,"""_,, ____ "'_ _ "'--.,_ _ _"'__ '''-·"_ _ _ _ _~'_",w ....,....'''_·_,,...,,_.._ _ _.'''~_·_ •••"_ _" ..- _ _ _ _ _ ,,.._ _ _ _ _ _~"'_,,_+-_I

      g. Copy of report given to parent(s). (300,,534)
 Comment:



 4. INDIVIDUALIZED EDUCAT~ON PROGRAM (IEP)
      a. Clirrent IEP In students file. DATE: 	                                          342)
 Com~nent:


      b. InitiailEP                                         d.ys of elfgibility
 C9inme~: '


      c. Current IEP is less than one year (365 days) old. (300.342)
 Comment:


    d. IEP implementation date is defined on the IEP. (300.382)
 Comment


 5. Appropriate participants included on the IEP team: (300.344) ,
      a. 	 Parent(s) (300.344)
      b. 	 School administrator who is qualified to provide or supervise the provision of specially designed instruction,
           who is knowledgeable about the general education curriculum, and who is knowledgeable about the
           availability of resources (can commit school funds)" (300.344 & 540»
      c" 	 Special education teacher. (300.344)
      d. 	 General education teacher(s)" (300.344)
      e. 	IndMdual who can interpret test results and instructional implications. (300.540)

      f. 	 Student (must be invited if 14 or older). (300.344)
      g. RepresentatiVe of private school or a representative (300.401 & 344)
 Comment:




 6. IEP content:           (300,,346 & 347)
       a. 	 Statement of present levels of educational performance, including how disability affects involvement and
            progress in general education curriculum. (300.347)
  Comment:


                                                                                     3

      1121/2~/21211214            1219:33       512152487545                           DOI BIA OIEP CSI
                                                                                                            Attachment
                                                                                                                                          PAGE         136/11

   ~
Studcmt~                                    F                   Teacher:               a   7                             Date: 07/09/2004
                                                                             ',,' ..
             b. Measurable annual goals. (300.347)
 Comment

1--'-- -"'--'''"".--,.. ' ,'-'" .,."--",---..•.-~.---"----.",,.---..,.--,.,,,,-,--.-----.~-- .--...- - . ' ' . - -..-.-'-.-,-----'--'­     --",,,"- t­                -­
             c. Goals are challenging, reflect high expectCltion and yet attainable. (300.347)                                           ---.                   .._­
 Comment:

1-----.,..- - " . -.•..", """'--""'"   ".-~-.'-------.--..--.----------~--.--.-.• ,'.--.,-~~.----+                                                              ___-1
          d. Two or more short-term objectives/benchmarks for each goal. (300.347)
      .
 Comment:
                       ..
                  "
                                                                                                                                                        "~"
 --+,-------.----.---------~----------------~----~+-~--I
        ),. A statement of how.the child', ~re,n.t(s) will 'be .regularly I~formed on .their chi!d's progress toward the goals,                                  rr
      ! ':  and the extent tn which that progr~' is sufficient to enable the child to achieve th~ goals by the end of the year.                             I   i'
                      (300.347)                                                                                                                             (y
 corl1ment:                                                                                                                                       .!
                                                                                                                                                       /:
                                                                                                                                                ,/.




         f. Consideration of extended school yeQr services. (300.309)
 Comment:

~-----------------------------------------------------------~-~
   g. Consideration of assistive technology needs. (300.346)
 Comment:

~----------------------------------------~-------------------------------------.----+-~.-
    h. Consideration. if appropriate, of LEP needs, monitoring hearing aids, and/or use of Braille. (300.346)
 Comment:


    i. Consideration of behavior intervention needs. (300.346)
 Comment:


         j. If required, positive behavioral supports are appropriate to reduce suspension/expulsion. (300.346)
 Comment:

~----------------------------------~------------------------------------------------r------
    k. A statement of indMdual modlftcations in the administration, state, or school wide assessment, or why the
       assessment is not appropriate and how the student will be assessed. (300.347)
  Comment:


             I.       An explanation of the e)(l:ent, if any, to which the child will not participate With non disabled peers in the general
                      education classroom, general education ourriculum, extra.curricular, snd/or other nonacademic actMties.
                      (300,347)
  Comment


             m. A listing of each special education and related services indicating amount of time. start date and duration.
                      (300.347)
  Comment


                                                                                  4

             10/2~/2004       09:33        5052487545
                                                                                       DOl BlA OIEP CSl
                                                                                                                                   PAGE   07/11
Student",                         7 ! :1                   TeaCher:..,...... 	                                     Data: 07/09/2004
           n. A I~ng of'accommodations j modifications, and support in general and special education. (300.347) 

    Comment: 


    ~.'---"-.-~     .•-"---.--".--.------.,,.-,,-.-.- ... -	   ...   -,,---.~-.               .-,.-~---   ..   -,.-----~.-    ---- --­
                                                                                                                             ..
           o. IEP focuses on improving academic skills and educational performance. (300.347) 

    Comment 


    r--.-
        . ----"-.".-".--"----.-----.-----.-----~---,-.-..- - - -.. ",,--_.-,,-..---.----..-"-.-.,,----.
        7. 	Statement of transition service needs beginning at age 14:
            ~.   At age 14. a course of study is defined. (300.347) 

    Comment: 



           b. At age 16, a statement of interagency responsibilities or any need linkages. (300.347) 

        Comment: 

.   "



       ... c>Re(ll"eSentatiVeS ftom other agel)cies ar.e·in~ed and.attend the transition meeting (age 16+). (300.344) 

    . Comment: 



            d. 	Not later than their 11th birthday, an explanation that rights will transfer to the student at age 18. (300.347)

        Comment:


           e. Graduation requirements addressed. (300.347) 

        Comment: 



            f.. 	 Students age 14 and older are being prepared      to successfully transition to work, independent living, or
                 additional education services that facilitate SuccessfUl tmnsitton from SChool to work or from school to
                 post-secondary education. (300.347)
        Comment:


        8. Documentation of altemative methOds of gaining input from partiCipants not In 

           attendance, where appropriate: 

            a. Parent(s). (300.345) 

        Comment: 



            b. Transition-age student. (300.345) 

        Comment: 



            c. Agency representative(s) responsible for providing preschool or secondary tranSition services. (300.345) 

        Comment: 



           d. Private school representative(s). 

        Comment 




                                                                                  5

      10/2S/2004             09:33            5052487545                                                                     Attachment


                                       •
                                                                                                      DOl BlA OlEP CSl                           PAGE   08/11

-'~··a
  .I~~~                                                                Teachen                                  ~   ,   '
                                                                                                                                       Date: 07J09J200iJ
 9. Placemer:tt             and Services:
    a. Pa.rental Consent for Placement included in file. DATE:                                                                i05) 

 Comment 


f'-'" ,                                                                                                                                                    .,~   ..." " , , ­
     b. All services defined on the IEP a.re provided and promote a high quality education. (300.142) 

  Comment: 



 10. Invitation     (300.345)
      a. Parent informed of purpo5e, time location and attende&S of formal meetings. (300.345) 

  cornment: 



          b. InVitation Includes Infonnation regarding t!'le parents· rights to bring other, people to the meeting.
           (300.345)
 Corinnent:

          C.   Invftation meBts secondarY transQion requirement. (300.341 & 348)
'tcim~8nt:

          d. Current Procedural Safeguards brochure provided along with inVItation to meating. (300.343 & 533) 

  Comment: 



          e. Dooumentation of attempts to arrange a mutually agreed upon time and place for the meeting. (300.345)


  Comment:


 11. VVKrI ..• t:.N NO·••vl:.                PiO'::::::;~;
          a. For the initial assessment. (300.503) 

  Comment: 



          b. Prior to implementation of IEP. (300.503) 

  Comment: 



          c. Prior to a change in a.n IEP. (300.503) 

  Comment: 



          d. Prior to a change In placement. which includes graduation. (300.503) 

  Comment: 



          e .............IIM the reevaILI ation U"L..
                                                ..t,  II,"ilClIUUn ' an d .........~.........t
                                                                          vUIIUIIUCU             "'"~'''''''J   fo r'
                                                                                                                  seMces. (300.503)

                                                                                                                          

  Comment: 



          f. All Written Notices answer the five questions required by IDEA. (300.503) 

  Comment: 



                                                                                                 6

               10!2~!2004               09:33          5052487545
                                                                A tta. C h m eM.' -t-DOlc.~BIA OlEP CSIAttachment                           PAGE      09/11


    STUDEN,T:                                                                     DaB:

I
                    -                                                                                            DATE:                  .
       ~ESENT LEVELS OF EDUCATIONAL PERFORMANCE-                                           Describe ;n PLAIN TI2RMS: (a) What the student
          and CANNOT DO compared to the same grade peers, (b) how the child's disability affects involvement and progress in the general
       ~CCltion curriculum, (c) as appropriate, performance on any general school·wlde assQssment programs, and (d) parental concerns,




           .


                                   '"
                                          "
                        ,""',","': ....   ',".
                                                 '"




    Parents will         b~:"inforrned Q~,pr.o9r~ss: I                                      .             "I Method:        I
                                                                      , 'ANNUAL,GOAL                                                                 Goal
                                                                                                                                                     Co~e
    Annual          Go~l#                              (Linked to PLEP.MeASURAsLS'& reasonably acoomplished within 12 months. )




    EXTENDED SCHOOL YEAR                                  o Yes   ONo     o Postponed until (Initial IEP only)      Complete ESY form to make. del,erminatjor .

                                                 SHORT TERM OBJECTIVES or BENCHMARKS (Minimum of 2)
                                              (If STO's are used each objective must have a Behavior, Condition & Criteria.)

     " I




    Evaluation Procedures:                                                                       Positions Responsible:




~                  

    Evaluation Procedures;                                                                       Positions Responsible:




~                  

    Evaluation Procedures:                                                                       Positions Responsible:




~ 

           "Jation Procedures:                                                                   ' Positions Responsible:



                                                                         form 21 Fage D
         10!2S!2004       09:33       5052487545,                            DOl BlA OlEP CSl     Attachment         PAGE    10/11
                                              At\ttCh VVlevtf D
IEP DATE:
              .   ------------------
                                                 EXCEPTIONAL EDUCATION
                                                   PROGRESS REPORT
          !ctions: Update and provide to parents with report cards. \fl~~~:~
                                                                                                 [

     I   UDENT:                                                    DOB:                                DATE·
    Goal Progress: 

    1 ~ This goal has been met. 

    2= Progress has been made toward the goal. It appears that the goal will be met by the annual review date. 

    3= Progress has been made toward the goal but the goal may not be met by the time the annual review date. 

    4:::: Progress is not sufficient to meet this goal by the annual review date. An IEP amendment i~ required. 

    5='Your chi!d did not work on this goal during thil:i reporting period. (Provide an explanation to the parents.) 


    Annual Goal #                 Define goal in space provided.                                                         ~oal   Code




     Report ,1.:' Dat~:                        Goal Progl'ess,,:   01 02 03 04 05 

    'Corntnent ' 



    Repor1: 2: Date:                           Goal Progress:      01 02 03 04 05 

    Comment: 


    Report 3: Date:                            Goal Progress:      01 02 03 04 05
    Comment:

    Report 4: Date:                            Goal Progress:      01 02 03 04 05 

          llment: 


    Report 5: Date:                            Goal Progress:      01 02 03 04 05
    Comment:

    Report 6: Date:                            Goal Progress:      01 02 03 04 05
    Comment:


    Report 7: Date:                            Goal Progress:      01 02 03 04 05 

    Comment: 


                                 At the end of the IEP goal period, anSwer the following questions. 

    Progress: Is the child making progress expected by the IEP taam? 
  Independance; Is the child more independent in goal area?
          o  Goal met                                                         0 Greater independence 

       0     Goal not met,  but performance   improved   
                    0 Unchanged independence 

       0 No change or poorer performance 
                                    0 Less independence 

       0 Insufficient data for decision making 
                              0 1nsufficient data for decision making 

    Comparison to peers or standard: How does the child's performance 
 Goal Status: Will work in the goal area be continued or 

    compare with general education peers or standards? 
                discontinued?
                                                                                                              Continue goal area:
       0 Comparison to age or grade level peers or standards not Discontinue goal area: 

             appropriate 
                                                    o
                                                                            Success,  no  further  educEI­    D More advance work
       0 Less discrepancy from peers or standard 
                          tion needs in goal area              in goal area
       '-::J Same  discrepancy   from  peers or standard   
            0   Goal  area is not a priority       o Continue as written
          0   More discrepancy from peers or standard                             for the next year 

                                                                              0   Limited progress, plateau
I         0   Ins'ufficient data for decision making 

                                                                   Form 23
  10/29/2004                09:33            5052487545                            DOl BlA OlEP CSl            Attachment     PAGE   11/11
                                                         A'-t-\-{tC;{t) VV'\ tnt             [::.
                                                        Exceptional Education
                                                                Contact Log
     Aent Name:
ParenUGuardian Name:
                             -----------------------------                                          Daytime Phone:
Date:                               Person Contacted:                    Purpose of Contact:
Meeting Notice:                -·O"Meeting D~te 0 Meeting Time 0 Meeting Location 0 Person(s) Attending
Commonts:


Date:                                    Person Contacted:                             Purpose of 'Contact:
          ---::..,--,-,,--------;:
Meeting Notice:                   o Meeting Date        0   Meeting Time   0   Mee.ting l,ocation 0 person(s) Atten,dlng
Comments:


Date:··                          Pel'$on Contacted:,                                   Purpo., of Contact:
Meetin-g"":'N-:-o~ti~ce-:~'---=:0 M~eti~g D'~ted Meeting Time              0 Meeting L6cati~n [j Pers~n(s) Attending
Conllnen,b:


Date:                                     Peraon Contacted:                            Purpose of Contact:
Meetin-g"":'N"!""o"":':ti~ce-:----;D== Meeting Date     0   Meeting Time   0   Meeting Location     D   Person(s) Attending
Comments:


     ~:                                   Pereon   Contacted~                    Purpose of Contact:
         .-,-.,........,-----:::::: 

,..Ieeting Notice:                o Meeting Date        0 Meeting Time D Meeting Location 0 Person(s) Attending
Comments:


Date:                                     Person Contacted:                           Purpose of Contact:
          ----~---==
Meeting Notice:                   o Meeting Date        0   Meeting Time   0   Meeting Location     0   Person(s) Attending
Comments:


Date:                                     Person Contacted:                            Purpose of Contact:
Meeting Notice:                   o Meeting Date
          ---::..,......",....--~---:=

                                                        0   Meeting Time   0   Meeting Location     0   Person(s) Attending
Comments:


Date:                                     Person Contacted:                            Purpose of COl1tact:
Meetin-g-:-N-:-o-:':ti~ce-:~--;D::::; Meeting Date      0 Meeting Time 0 Meeting Location 0 Person(s) Attending
Comments:


Date:                        Person Contacted:                                         Purpose of Contact:
Meetin-g-N-o-ti-ce-:-----=D= Meeting Date 0 Meeting Time                   0   Meeting Location     0   Person(s) Attending
    "ments:


                                                                      Form 27
                                                         ATTACHMENT F 

                         TURTLE MOUNTAIN ELEMENTARY AND MIDDLE SCHOOLS 

                                CORRECTIVE ACTION PLAN FOR 2004-2005 

Objective                          Strategies                                Benchmarks/                            Timeline
                                                                             Evidence ofChange
School will have progress          (1) Special education teachers will use (1) ISEP validation of all special       (1) ISEP by October 22,
reports in 100% of student files   required forms to document progress     education files and (2) Second Tier      2004; (2)Second Tier
with evidence to show that         of students with disabilities; (2)      monitoring done between Jan. and         results due by April 2005;
parents have received them as      Special education teachers will use     April of each year, both conducted       quarterly (3) June 2005
evidenced through scheduled        required forms to document contact      by agency staff; on-site visits from
and random visits from the         made with parents to inform them of     the agency to verify progress notes
Turtle Mountain Education          their child's progress. (3) the school  were sent to parents of all children
Line Office staff.                 will distribute a survey to parents of  with disabilities. (3) School special
                                   all students with disabilities on the   education coordinator will collect
                                   effectiveness of the program.           and verify parent surveys for
                                                                           agency validation.
School will provide                (1) Special education teachers will use (1) ISEP validation of all special       (1) ISEP by October 22,
documentation in 100% of           required forms to document progress education files and Second Tier              2004; Second Tier results
their student files showing        of students with disabilities therefore monitoring done between Jan. and         due by April 2005; (2)
services have been provided to     indicating service was provided; (2)    April of each year, both conducted       quarterly
students with disabilities as      Special education teachers will         by agency staff; (2) School special
verified through scheduled and     maintain attendance records             education coordinator will verify
random visits from the Turtle      documenting frequency and duration attendance records for agency on-
Mountain Education Line            of services provided to students with   site validation visits.
Office.                            disabilities.

School will finalize their         (1) Turtle Mountain elementary and        The updated policies and               December 20, 2004
Special Education Policies &       middle school special education staff     procedures manual will be
Procedures Manual to include       will meet to update their policies and    available on-site at the school, and
a statement of how and when        procedures manual; (2) The P&P will       kept on file at the Turtle Mountain
parents are notified of their      be presented to school board for          Education line office and the
child's progress.                  approval and signature.                   Center for School Improvement.         May 2005




                                            Page 1                                  1113/2004
